No.

20-560a
IN THE

SUPREME COURT OF THE UNITED STATES

supreme Court, U S”
FILED

JUN 2 5 2020
OFFICE OF THE Cl FPik

Michael J. Besoyan
(Your Name)

— PETITIONER

vs.
Jimmy Lee et,al.

4/

(disputed trial court entry)
— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
Ninth Distriri Hoi irt nf Appeals

PETITION FOR WRIT OF CERTIORARI

Michael J. Besoyan
(Your Name)
2945 Bell Rd. #131
(Address)
Auburn. Ca. 95603
(City, State, Zip Code)
775 210-1300 530 210-9137
(Phone Number)

qjS

y—lQ*~-0&

QUESTION(S) PRESENTED

Whether any court or tribunal should
be allowed to deny or deprive any citizen of basic rights listed in the Bill of Rights and the 14th
Amendment even if enacted by congress as in :
Pursuant to 28 U.S.C. 1915(e) a federal court has authority to dismiss a civil rights case
of an IFP pro se litigant sua sponte if the action or appeal is "frivolous or malicious",
28 U.S.C. 1915(e) (B)(1); fails to state a claim on which relief may be granted, 28 U.S.C.
1915(e)(B)(ii), or seeks monetary relief against a defendant who is immune from such
relief. Normally, after a defendant is served, a defendant must timely file an answer with
affirmative defenses or
In IFP cases, the court must serve the defendant.
Whether discrimination is a civil rights violation against self represented litigants that file in the
United States District Courts that are denied Due Process and Equal Protection when the court dismisses a case
before the defendants are served . Thus depriving a citizen of basic access to liberty and justice allowing states
to plunder and usurp land and possessions of unfairly disfavored citizens.
Whether the fundamental right of a jury trial can legally be denied if a case clearly IS NOT frivolous or without
merit even if the lower courts mistakenly label the case as such followed by unwarranted dismissal.

(c)(3) FRCP....RE service to defendants.
When the court does not serve defendants, as required by law, then dismisses the case YEARS
later, is grounds to deny a litigant, of any class, meaningful access to the judicial system when
seeking damages for civil rights violations. If so that is an opportunity for lower governmental
entities to abuse it's citizens without recourse leaving abused citizens without a remedy for their
losses.
It also removes any meaningful settlement agreement after a governmental entity accepts any
wrong doing.

Whether pursuant to Rule 4

Whether after a citizen's land and all possessions are usurped it qualifies as cruel under the 8th
“The Eighth Amendment’s Excessive Fines Clause is an incorporated protection applicable to the
States under the Fourteenth Amendment’s Due Process Clause,” Ginsburg said. Justice Clarence
Thomas and Neil Gorsuch agreed with the main ruling, but they said the 14th Amendment’s
Privileges or Immunities Clause was the controlling factor in the case."
Whether orders and judgments are void if not affixed with the court seal

-

-/v-sx?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x ] All parties do not appear in the caption of the case on the cover page. A list
of all parties of the proceeding in the court whose judgment is the subject of this
petition is as follows:
NOTE: major confusion for myself exists as the District court provided the Appeals court with the
the defendant list that I published in the original complaint dated 1-8-2016, however The
defendant list and the case caption published with the original complaint was dismissed in
favor of the first amended complaint. The information that I published for the first amended
complaint is significantly changed when compared with that of the original complaint
Amended Complaintfrom the web site of
United States District Court Eastern District of California
...Ifyou file an amended complaint. It must be captioned as an "Amended Complaint."
...An amended complaint entirely replaces the original.
...An amended complaint does not just add to the first complaint. An amended complaint entirely replaces the original complaint.
Therefore, an amended complaint must include those portions ofthe original complaint that are necessary, while adding the new material to
be considered.
THE DEFENDANTS WERE NOT SERVED. THE WRONG LIST WAS USED IN BOTH DISMISSALS VOIDING THE ORDERS, this
also makes proof of service declarations not possible.

RELATED CASES
United States District Court for the Eastern District of California 2:16-CV-00046-KJM-EFB

United States Court of Appeals For The Ninth District

^05 ~~f<? - 60

19-16598

TABLE OF
CONTENTS
IFP

1-7

QUESTIONS PRESENTED

8

OPINIONS BELOW

12

JURISDICTION

13

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

13-14

STATEMENT OF THE CASE

15

REASONS FOR GRANTING THE WRIT

16-17

CONCLUSION

...17

INDEX TO APPENDICES
APPENDIX A

Ninth District Court of Appeals motion reconsideration

APPENDIX B Ninth District Court of Appeals denial of reconsideration for rehearing
APPENDIX C
See appendix table of contents enclosed per clerks letter dated 6-30-2020

—o

,c~'<0'CP

TABLE OF AUTHORITIES CITED

CASES
From: The Fordham Law Review
"Meaningful access to the courts is a fundamental constitutional right Derived from the first amendment,
and the due process clause of the fourteenth amendment, the right protects a litigant's interest in using the
judicial process to attain redress of grievances."
For pro se litigants the right guarantees all the means necessary to
ensure an adequate hearing on all alleged grievances."( explain why the case was closed )
The importance of the right of access has long been recognized by the SupremeCourt. See, e.g.,
Chambers v. Baltimore & Ohio R.R., 207U.S. 142, 148 (1907

In a "motion to dismiss, the material allegations of the complaint are taken as admitted". From this vantage
point, courts are reluctant to dismiss complaints unless it appears the plaintiff can prove no set of facts in
support of his claim which would entitle him to relief (see Conley v. Gibson, 355 U.S. 41 (1957))
(1) ‘courts must,..., accept all factual allegations in the complaint as true’; (2) ‘courts must consider the
complaint in its entirety, ...as well as other sources courts ordinarily examine when ruling ...
STATUTES AND RULES
Civil litigants have a statutory right to proceed pro se under 28 U.S.C. § 1654. A liberal
construction of the pleadings enables a court to assess the nature of the interests at stake.

OTHER
In a unanimous decision, the Supreme Court has chipped away at the odious practice of civil asset forfeiture.
The decision is potentially a major victory for property rights and civil liberties. The key questions before the Court are whether the
Excessive Fines Clause of the Eighth Amendment is “incorporated” against state governments and, if so, whether at least some
state civil asset forfeitures violate the Clause. The justices answered both questions with a unanimous and emphatic “yes.” As a
result, the ruling could help curb abusive asset forfeitures, which enable law enforcement agencies to seize property that they
suspect might have been used in a crime - including in many cases where the owner has never been convicted of anything, or even
charged. Abusive forfeitures are a a widespread problem that often victimizes innocent people and particularly harms the poor....
the Court.. .previously ruled that the Fourteenth Amendment incorporates nearly all of the rest of the Bill of Rights against the states,
including the Excessive Bail and Cruel and Unusual Punishment Clauses of the very same amendment. Justice Ruth Bader
Ginsburg’s majority opinion offers a good explanation of why incorporation of the Clause is easily justified under the Court’s
precedents.
(This morning, the Wall Street Journal opined favorably on the ruling.)
Police and prosecutors around America have long used asset forfeiture as a cash cow, but a unanimous Supreme Court ruling
Wednesday should make them think twice. The Bill of Rights keeps paying dividends even after 228 years. ...Justices left and right
agree. In her opinion for the Court, Justice Ruth Bader Ginsburg held that the safeguard on excessive fines, quoting earlier cases, is
“fundamental to our scheme of ordered liberty” and “deeply rooted in this Nation’s history and tradition.” ...the Court’s ruling in Timbs
v. Indiana puts states and cities on notice. Some police departments have set annual targets for asset seizures, and a limiting legal
principle has been nowhere to be found. During oral argument, Indiana’s solicitor general said that if a driver in a Ferrari was going
five miles over the speed limit, that could be grounds for police to take the car. ...defendants trying to protect their property against
unjust state seizure will now have the Constitution firmly on their side. Unlike criminal asset forfeiture, there’s no finding of illegal
behavior in cases of civil asset forfeiture. Indeed, in many cases,
Local government steals the property of people who aren’t even charged with a crime!
"Great, a big step forward but when will my family ever see justice

— o4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A&B to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

0$ -jo-0O

JURISDICTION
[x ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
w
[ ] No petition for rehearing was timely filed in my case.
[ x] A timely petition for rehearing was denied by the United States Court
of Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix__^
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
-The Fourteenth Amendment secures the right to due process; the Eighth Amendment prohibits the use of cruel
and unusual punishment. These rights can be violated by the use of force amounting to punishment (summary
judgment). The person accused of a crime must be allowed the opportunity to have a trial and should not be
subjected to punishment without having been afforded the opportunity of the legal process.
Civil Applications
Title 42, U.S.C., Section 14141 makes it unlawful for state or local law enforcement agencies to allow officers to
engage in a pattern or practice of conduct that deprives persons of rights protected by the Constitution or U.S.
laws.. That’s why it’s a federal crime for anyone acting under “color of law” willfully to deprive or conspire to
deprive a person of a right protected by the Constitution or U.S. law. “
Defendants have Grossly, Willfully, wantonly, Unlawfully, Carelessly, Recklessly, Negligently, Intentionally,
maliciously, Purposefully, and Discriminatingly Conspired to deprive Plaintiff of his Constitutional rights and
They have Refused, neglected or Failed to Protect Plaintifffrom said Conspiracy although they have been a
position to do so.
A judgment may not be rendered in violation of constitutional protections. The validity of a judgment
may be affected by a failure to give the constitutionally required due process notice and an opportunity
to be heard. Earle v. McVeigh, 91 US 503,23 L Ed 398. See also Restatements, Judgments ' 4(b). Prather
vLoyd, 86 Idaho 45, 382 P2d 910. The limitations inherent in the requirements of due process and equal
protection of the law extend to judicial as well as political branches of government, so that a judgment
may not be rendered in violation of those constitutional limitations and guarantees. Hanson v Denckla, 357
US 235, 2 L Ed 2d 1283, 78 S

~-<?3

Procedural Due Process Civil
SECTION 1. All persons born or naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and the State wherein they reside. No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

"Title 42, § 1983 of the U.S. Code provides a mechanism for seeking redress for an alleged
deprivation of a litigant’s federal constitutional and federal statutory rights by persons acting under
color of state law."
Punitive damages are available in a civil rights action under § 1983 when a
defendant’s conduct “is shown to be motivated by evil motive or intent, or when it involves
reckless or callous indifference to the federally protected rights of others.”
Smith v. Wade46 1 U.S. 30, 56 (1983)
Private property is owned and controlled by private individuals. There is no monetary or proprietary
interest that a government at any level has in controlling property belonging to a private individual. The
property owner decides with whom he/she wishes to negotiate, procure a contract, dispose of or
improve property. Jones v. Mayer Co., 392 U.S. 409 (1968). It has been described as the very
essence of a scheme of ordered justice, Brock v. North Carolina, 344 US 424, 97 L Ed 456, 73 S Ct
349 and it has been said that without it, the right to private property could not be said to exist, in the
sense in which it is known to our laws. Ochoa v. Hernandez y Morales, 230 US 139, 57 L Ed 1427, 33
SCt 1033.
The court is to protect against any encroachment of Constitutionally secured liberties.” Boyd v. U.S.,
116 U.S. 616
Federal courts, have a “constitutional obligation” to safeguard personal liberties and to uphold federal
law.” Stone v. Powell 428 US 465, 96 S. Ct. 3037, 49 L. Ed. 2d 1067.
The Supreme Court ruled that "Municipalities cannot exert any acts of ownership and control over
property that is not OWNED by them ", see Palazzolo v. Rhode Island 533 US 606, 150 L.Ed. 2d
592,121 TS.Ct.
(2001)
The rights in property are the basic civil rights has long been recognized. Congress recognized these
rights in 1871 when it enacted the predecessor of 42 U.S.C. 1983 and 1343(3). We do no more than
reaffirm the judgment of congress today.” Lynch v. Household Finance Corp., 405 U.S. 538 (1972). In
Hardesty v, Sacramento county relief provided under the 14th amendment was verified by the jury for
the very same PATTERNED unconstitutional abuses that the same county forced on me by
policy. It gets in their blood, and continues forward to next generation directors.

request for reconsideration dated 1-8-2019 to D.C."/ think a judicial chief of the District Courts
should read every word of the complaint and exhibits before I'm launched into the depths of appeal
requirements. There may be no oversight function that I request, but getting tossed to the
9th for an appeal would just support more distance between living under Liberty once again or
remaining right less, beat down, humiliated and agonized. If not reopened, please send the appeal
documents, "(no forms were received, allowing doubt that the request was read.)

STATEMENT OF THE CASE
In the county of Sacramento California, I battled for 10 long years managing to stop the “power to sell”
attacks 9 times. The county prevented us from rebuilding our home after the fire, 3-21-2004, using fraudulent
liens and grossly inflated values. The Assessor and tax collector with the consent of the untouchable Board
of Supervisors grossly overvalued my 40 year property for 10 years preceding the unlawful sale. Amounts
demanded, after the home was lost to arson, were fraudulently increased by over 2000%. (proof in
complaint) As a result of the counties conspired malfeasance, they demanded 52,000.00 USD, however only
3800.00 was due on the remaining land. After decades of unconstitutional activity, on 2-24-2014, the county
sold our, paid in full, 40 year property at a public auction that I was not allowed to attend. Conspiracy,
corruption and a total disregard for the law put me on the street, my family dismembered. In July of 2015 I
was removed by a para-military force of 50 officers with full air support. Over 100,000.00 USD of remaining
business and personal assets was stolen from us after being promised that we would be able to keep all of
our possessions. The tax collector, herself, forged easement documents with the county recorder, for my 40
year property, to favor the counties' fraudulent deed conveyance . FACT;The county, in the same time
period, has been exposed to public scandal and high dollar awards in federal court for their continued
disregard for federal and state constitutional law contributing to their unlawful customs that abuse citizens for
county financial gain.
After 4 very difficult years in the federal district court my case was dismissed. The 50 + county actors were
never served as required by law. My right to a jury trial was laughed at and the extreme abuses and
deprivations of the Bill of Rights and the 14th Amendment continued for over a decade forced over us and
backed by an incredible showing of law enforcement and "police powers". I was never charged or indicted for
a crime in my entire life. I took my case to the the ninth circuit court of appeals that was denied, leaving me
only an action in the Supreme Court which is known to take on less than 1 % of cases filed. My family
represents a class of Americans, treated shamelessly, that cannot access the courts for protections of
inalienable guaranteed Constitutional Rights.
There it is. Worked a lifetime to gain, then a second lifetime to be kicked and shattered with all LIBERTIES'
USURPED. All of our hopes, freedoms, legacy and assets were stolen by force against our free will.
Government’s only purpose is to protect the rights and property of the citizens....
DEMAND and Declaration Michael J. Besovan, Plaintiff-Appelfan
No.19-16598

D.C. No. 2:16-cv-00046-KJB-EFB

seriously doubt that congress intended to direct the USDC and the U.S. Court of Appeals to block a citizen's
ath to seek damages for blatant Constitutional deprivations by focusing only on format and grammar. I have
een patient and tried using all the skills that I possess to comply with the rules. Over FOUR YEARS since
ling and 1000's of hours of research is swept away after facing the results of years of intentional stealthy
ncroachments of my inalienable Constitutional and HUMAN RIGHTS rights by the defendants. If these rights
re "inalienable, not transferable to another or not capable of being taken away or denied" Then the court must
roceed on my pleadings. A liberal reading in my favor has not occurred. It does not take a legal professional
) deduce the clearly stated facts that I have plead. The abuse and unfair treatment that my family has
ndured is plain and simple to see and feel. My pleading form indicates FACT. Our LAND AND THE
IALANCE OF OUR POSSESSIONS WERE TAKEN FROM US BY ACTORS USING POWERS ONLY
5RANTED BY COLOR OF LAW. I could not state it with more clarity. My right to a jury trial, as stated in the
th amendment,"shall be preserved" Targeted and disfavored litigants have the same equal rights as all
Americans.
demand that my Constitutional Rights are honored.
IBERTY REQUIRED
igned and dated: 11-5-2019 (added content 6-15-2020)
lichael J. Besoyan s/s
lichael J. Besoyan, Plaintiff-Appellant

oZ^to

All the factual pleading is contained within the first amended complaint and my requests for reconsideration
in the District Court and the Ninth District Appeals Court.

REASONS FOR GRANTING THE PETITION
THE AMERICAN DREAM
Private property
gives individuals a way of transforming their labor into usable wealth
Private property can only fulfill its function as a mitigator of tyranny if a landowner’s
rights extend beyond mere ownership. When an individual acquires a piece of
property, he does not just obtain title over the physical real estate, but rather
assumes a collection of rights that accompany the property and allow for its free use
—what the law often describes as a “bundle of sticks.”
For example, a landowner possesses the right to exclude others and ward against
trespass; he also possesses the right to actively use his property, convey it onto
others, and hold it as collateral against other contracts.
Importantly, it is by exerting these accompanying rights that landowners redeem
their property’s true value and attain self-sufficiency since land, on its own, has little utility.
Any attempt at appropriating or regulating these rights away without adequate
compensation threatens to unjustly deprive property owners of their dignity, their
livelihood, and their ability to realize their personal liberty.

As shown in this case an IFP-PRO SE litigant may indeed have a sound complaint for damages
when their rights have been given no notice by state actors. These actors, knowing the law can
deprive citizens of Constitutional Rights which can include the usurpation of personal liberties,
earned assets and value by fraudulent means without any concern for the punishment
prescribed for the violations. There are hundreds of laws that protect citizens, both state and
federal, but at times, all too often, are in fact unreachable by an average citizen.
It is of National concern that citizens should be free from all encroachments of their rights and
not be exposed to arbitrary unconstitutional acts by actors that possess an evil intent or
personal dislike for an individual citizen or class of citizens.
The color of law and police powers must be held close to the limits that are guaranteed by the
Constitution of the United States. The Judiciary must be committed to allow a deprived citizen to
seek damages by way of a jury trial without the limitations that are seen in this case.
I am aware that the case load is heavy. Perhaps if the violators feared the consequences
the work load would diminish dramatically.

— 0 2. —to — <50

California Constitution Article 1, section 9 Due
Process; Equal Privileges and lmmunities:(a) A person may
not be deprived of life, liberty, or property without due process of law or denied equal
protection of the laws. Due process means that anybody wishing to restrain property or file
a protest against property of another, be it land, possessions, livestock, etc. must first put up a
Bond to indemnify the lawful owner(s) for the takings, THEN go through the process of having the
matter decided by a jury.
THE EXTREME ABUSE SHOWN IN THIS CASE WILL CONTINUE TO DEMORALIZE HARD
WORKING CITIZENS. EROSION OF LIBERTY AND THE AMERICAN WAY OF LIFE IS AT
RISK. MY FAMILY HAS ALREADY PAID THE PRICE FOR THE VIOLATIONS. THE
REQUIREMENT OF FORM THAT THE JUDICIARY HAS DEMANDED TO DISMISS THIS
CASE IS ASTONISHING. A FAIR TRIAL BY A JURY AND THE RIGHT TO DEFEND OUR
DULY STATED POSITION IS ALL WE ASK FOR. THE RIGHT TO ACCESS THE COURT
SYSTEM AND TO BE HEARD IS A FUNDAMENTAL RIGHT. AN AWARD IS A PARTIAL
REMEDY THAT IS CLEARLY ALLOWED BY CONSTITUTIONAL LAW WHEN A CITIZEN
HAS BEEN DEPRIVED OF THEIR INALIENABLE RIGHTS. -MICHAEL J. BESOYAN

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
S/S Michael J. Besoyan iflichad "3

an ■
cim/:::;

Michael J. Besoyan
Date:

June 15,2020

